Audit Report




OIG-11-041
SAFETY AND SOUNDNESS: Failed Bank Review of Granite
Community Bank, N.A.
December 2, 2010




Office of
Inspector General
Department of the Treasury
                                            DEPARTMENT OF THE TREASURY
                                                   W ASHINGTON, D.C. 20220




     OFFICE OF
INSPECTOR GENERAL
                                                  December 2, 2010


            OIG-11-041

            MEMORANDUM FOR JOHN G. WALSH
                           ACTING COMPTROLLER OF THE CURRENCY

            FROM:                        Michael J. Maloney /s/
                                         Director, Fiscal Service Audits

            SUBJECT:                     Failed Bank Review of Granite Community Bank, N.A.


            This memorandum presents the results of our review of the failure of Granite
            Community Bank, N.A. (Granite). On June 4, 2002, Granite opened as a de
            novo 1 national chartered bank with the main office in Granite Bay, California,
            and two branches located in Auburn and Roseville, California, and a loan
            production office in Paradise, California. The bank was wholly owned by Granite
            Bancshares, Inc. a publicly traded, one-bank holding company. The Office of the
            Comptroller of the Currency (OCC) closed Granite and appointed the Federal
            Deposit Insurance Corporation (FDIC) as receiver on May 28, 2010. As of
            March 31, 2010, Granite had $102.9 million in assets. FDIC estimated that the
            loss to the Deposit Insurance Fund is $17.3 million.

            Because the loss to the Deposit Insurance Fund is less than $200 million, as set
            forth by section 38(k) of the Federal Deposit Insurance Act (FDIA), we
            conducted a review of the failure of Granite that was limited to (1) ascertaining
            the grounds identified by OCC for appointing the FDIC as receiver and
            (2) determining whether any unusual circumstances exist that might warrant a
            more in-depth review of the loss. In performing our review we (1) examined
            documentation related to the appointment of FDIC as receiver, (2) reviewed
            OCC reports of examination for the 5-year period before the bank failure, and
            (3) interviewed OCC examination personnel.

            We conducted this performance audit during September 2010 in accordance
            with generally accepted government auditing standards. Those standards require
            that we plan and perform the audit to obtain sufficient, appropriate evidence to
            provide a reasonable basis for our findings and conclusions based on our audit


            1
                A newly chartered bank that has been open for less than 3 years.
OIG-11-041
Page 2

objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

Causes of Granite’s Failure
OCC appointed the FDIC as receiver based on grounds that included the following:
(1) the bank had experienced substantial dissipation of assets or earnings due to
any unsafe or unsound practice; (2) the bank was in an unsafe or unsound
condition to transact business; and (3) the bank had incurred or was likely to incur
losses that would deplete all or substantially all of its capital, and there was no
reasonable prospect for Granite to become adequately capitalized without federal
assistance.

The primary causes of Granite’s failure were its (1) high concentration in
commercial real estate (CRE) loans, (2) poor underwriting and credit administration
practices, and (3) inadequate board and management oversight. As of
December 31, 2007, Granite’s total CRE loan concentration was 811 percent of
Tier 1 capital plus the allowance for loan and loss leases. 2 The poor underwriting
and credit administration practices resulted in declining asset quality that was
exacerbated by a decline in the local real estate market that began in mid-2007.

Conclusion
Based on our review of the causes of Granite’s failure and the grounds identified
by OCC for appointing FDIC as receiver, we determined that there were no
unusual circumstances surrounding the bank’s failure or the supervision
exercised by OCC. Accordingly, we have determined that a more in-depth
review of the bank’s failure by our office is not warranted.

We provided a draft of this memorandum to OCC management for comment. In
its response, OCC stated that it agrees with our conclusion about the primary
causes of Granite’s failure. OCC also stated that it had no concerns with our
determination that a more in-depth review of the failure is not warranted. The
response is provided as Attachment 1. A list of the recipients of this
memorandum is provided as Attachment 2.



2
  Tier 1 capital is common shareholder’s equity (common stock, surplus, and retained earnings),
noncumulative perpetual preferred stock, and minority interests in the equity accounts of
consolidated subsidiaries.
OIG-11-041
Page 3

We appreciate the courtesies and cooperation provided to our staff during the
audit. If you have any questions, you may contact me at (202) 927-6512 or
Susan Roy, Audit Manager, at (202) 927-5746.

Attachments
         OIG-11-041

       Attachment 1
Management Response
                                                   OIG-11-041

                                                  Attachment 2
                                                    Distribution




Department of the Treasury

   Deputy Secretary
   Office of Strategic Planning and Evaluations
   Office of Accounting and Internal Control

Office of the Comptroller of the Currency

   Acting Comptroller of the Currency
   Liaison Officer

Office of Management and Budget

   OIG Budget Examiner
